Supreme Court, U.S.
FILED

SEP 0 1 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5374

Amro Elansari

State College Police Department
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

State College Police Department

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

September 1, 2020

(Type or print) Name

David S. Gaines, Jr.
CI Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Miller, Kistler & Campbell

Address

720 South Atherton Street, Suite 201

City & State
Phone

State College, PA

(814) 234-1500

Zip
Email

16801

dgaines@mkclaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Amro Elansari

RECEIVED
SEP 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

LAW OFFICES OF

MILLER KISTLER & CAMPBELL
RICHARD L. CAMPBELL
JOHN R. MILLER, III
TERRY J. WILLIAMS
TRACEY G. BENSON*
DAVID B. CONSIGLIO**
DAVID S. GAINES, JR.
MICHAEL S. LEVANDOSKI
JOHN W. LHOTA

PLEASE REPLY TO:
STATE COLLEGE OFFICE

September 1, 2020

OF COUNSEL
FRED B. MILLER

720 SOUTH ATHERTON STREET, STE. 201
STATE COLLEGE, PA. 16801-4669
(814) 234-1500
FAX (814) 234-1549
AND
124 NORTH ALLEGHENY STREET
BELLEFONTE, PA. 16823-1695
(814) 355-5474
GENERAL FAX (814) 355-5340
REAL ESTATE FAX (814) 357-0264
JOHN R. MILLER, JR.
(1919-2007)

*ALSO ADMITTED IN WEST VIRGINIA
*ALSO ADMITTED IN MARYLAND

ROBERT K. KISTLER
(1925-2012)

Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, DC 20543
Re:

In Re Amro Elansari, Petitioner
No. 20-5374

To Whom It May Concern:
The purpose of this letter is to provide you with the enclosed waiver application
and copy thereof on behalf of State College Police Department, a Respondent in the
matter referenced above. Please file the original and then time-stamp and return the
copy using the stamped return envelope that is enclosed with this letter.
Thank you for your assistance. Please let me know if you have any questions or
concerns.
Very truly yours,

David S. Gaines, Jr.
Enclosures (2)
CC: . .Amro. Elansari .
901 West Chester Pike
West Chester, .,PA: 19382 •

RECEIVED
SEP 1 1 2020
CAMPBELL MILLER WILLIAMS BENSON & CONSIGLIO, INC.
WWW.MKCLAW.COM

OFFICE OF THE CLERK
SUPREME COURT, U.S.

